         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Improved Security Planning
       Needed for the Customer
       Technology Solutions Project
       Report No. 10-P-0028

       November 16, 2009
Report Contributors:	                            Rudolph M. Brevard
                                                 Vincent Campbell
                                                 Charles M. Dade
                                                 Cheryl Reid




Abbreviations

ASSERT        Automated System Security Evaluation and Remediation Tracking
CTS           Customer Technology Solutions
EPA           U.S. Environmental Protection Agency
NIST          National Institute of Standards and Technology
OIG           Office of Inspector General
OMB           Office of Management and Budget




Cover photo: Standard Customer Technology Solutions laptop used by EPA employees.
             (EPA photo)
                       U.S. Environmental Protection Agency 	                                                  10-P-0028
                                                                                                        November 16, 2009
                       Office of Inspector General


                       At a Glance
                                                                                Catalyst for Improving the Environment

Why We Did This Review             Improved Security Planning Needed for the
We sought to determine             Customer Technology Solutions Project
whether the U.S.
                                    What We Found
Environmental Protection
Agency (EPA) implemented
                                   EPA lacks a process to routinely test CTS equipment for known vulnerabilities and to
oversight practices for the
                                   correct identified threats. Furthermore, EPA placed CTS equipment into production
Customer Technology
                                   without fully assessing the risk the equipment poses to the Agency’s network and
Solutions (CTS) contract. We
                                   authorizing the equipment for operations. The Office of Management and Budget
are continuing our review and
                                   requires federal agencies to create a security plan for each general support system and
plan to issue a separate report
                                   ensure the plan complies with guidance issued by the National Institute of Standards
on whether EPA has responded
                                   and Technology. Both vulnerability management and the preparation of critical
to resolve issues identified
                                   security documents such as the Security Plan and the Authorization to Operate are
during CTS deployment, and
                                   paramount to fulfilling this requirement. These weaknesses exist because EPA
implemented processes to
                                   undertook an aggressive schedule to install over 11,500 computers at 18 locations
eliminate recurring problems
                                   across the United States. As problems occurred during installation, management
with deploying CTS.
                                   focused its attention on addressing these issues in order to meet the deployment
                                   schedule milestone.
Background
                                   Given the widespread use of CTS equipment, thousands of information resources
EPA indicates CTS is the
                                   provide a path for potential unauthorized access to EPA’s network. EPA lacks
Agency’s Working Capital
                                   processes to identify these threats or the capability to lessen their impact.
Fund service, providing and
coordinating all information
                                   On November 9, 2009, management signed an authorization to operate for the CTS
technology end user support
                                   equipment and outlined key actions that needed to be completed.
and services for Headquarters
program offices. EPA plans for      What We Recommend
CTS to be a one-stop shop for
personal computing and             We recommend that the Director, Office of Technology Operations and Planning and
information technology support     Chief Technology Officer, Office of Environmental Information, direct the CTS
services. EPA will deploy CTS      contractor to develop and implement a vulnerability testing and remediation process
equipment at 18 locations          for CTS equipment consistent with existing EPA security policies and procedures,
across the United States.          and issue a memorandum to Agency Senior Information Officials requiring their
                                   program office to conduct vulnerability testing of CTS equipment until a formal
For further information, contact   vulnerability testing and management process with CTS has been established.
our Office of Congressional,
Public Affairs and Management      Until this process is in place, we further recommend that the Director require the CTS
at (202) 566-2391.
                                   contractor to remediate identified vulnerabilities in a timely manner and inform the
To view the full report,           respective Senior Information Official when they complete the corrective actions
click on the following link:       necessary to fix the vulnerabilities. We also recommend the Director ensure all key
www.epa.gov/oig/reports/2010/      actions outlined in the November 9, 2009, CTS authorization to operate are completed
20091116-10-P-0028.pdf
                                   by the defined milestone dates.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       November 16, 2009

MEMORANDUM

SUBJECT:               Improved Security Planning Needed for the
                       Customer Technology Solutions Project
                       Report No. 10-P-0028


FROM:	                 Rudolph M. Brevard
                       Director, Information Resources Management Assessments

TO:	                   Vaughn Noga
                       Acting Director, Office of Technology Operations and Planning and
                       Chief Technology Officer, Office of Environmental Information


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $271,418.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov; or Cheryl Reid, Project Manager, at (919) 541-2256 or
reid.cheryl@epa.gov.
Improved Security Planning Needed for the                                                                                          10-P-0028
Customer Technology Solutions Project




                                         Table of Contents 

Purpose .............................................................................................................................    1


Background .......................................................................................................................       1     


Scope and Methodology ..................................................................................................                 1     


Findings .............................................................................................................................   2


           CTS Project Lacks a Process to Identify and Remediate Known Vulnerabilities......                                             2

           CTS Project Lacks Required Security Planning.......... ..................................................                     3


Recommendations............................................................................................................              5     


Status of Recommendations and Potential Monetary Benefits....................................                                            6     




Appendix 

    A         Distribution .........................................................................................................
    7
                                                                                              10-P-0028 



Purpose
The Office of Inspector General (OIG) sought to determine whether the U.S. Environmental
Protection Agency (EPA) implemented oversight practices for the Customer Technology
Solutions (CTS) contract.

Background
EPA indicates CTS is the Agency’s
Working Capital Fund service,
providing and coordinating all
information technology end user
support and services for Headquarters
program offices. EPA plans for CTS
to be a single stop for personal
computing and information technology
support services. As shown on the
map at right, EPA will place CTS
equipment in 18 locations across the
United States.                              Source: EPA Office of Environmental Information Intranet


Scope and Methodology
We performed this audit from April 2009 through October 2009 at EPA Headquarters in
Washington, DC, and the National Computer Center in Durham, North Carolina. We also visited
the Headquarters field offices located in Las Vegas, Nevada, and the following EPA laboratories:

       •   National Exposure Research Laboratory in Athens, Georgia
       •   National Air and Radiation Laboratory in Montgomery, Alabama
       •   National Vehicle and Fuel Emissions Laboratory in Ann Arbor, Michigan

We performed this audit in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on the audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions.

We reviewed the CTS statement of work and interviewed EPA and contractor personnel
responsible for overseeing the CTS project. We also spoke with EPA Program Office officials
using the CTS equipment and EPA security personnel responsible for responding to security
incidents for their respective offices.

We had not performed past audits of CTS. We did however, issue a report related to
vulnerability management entitled Project Delays Prevent EPA from Implementing an Agency-
wide Information Security Vulnerability Management Program, Report No. 09-P-0240,
September 21, 2009.


                                                1

                                                                                         10-P-0028 





Findings
EPA lacks a process to routinely test CTS computers for known vulnerabilities and a defined
structure to remediate them. These weaknesses exist because EPA did not specify, in the CTS
statement of work, that the CTS contractor was to perform vulnerability management. EPA
installed CTS equipment without assessing the risks to the Agency’s network and without
authorizing the equipment for operations. Appendix III to Office of Management and Budget
(OMB) Circular A-130, Security of Federal Automated Information Resources, requires federal
agencies to create a security plan for each general support system. OMB also requires the plan
to comply with guidance issued by the National Institute of Standards and Technology (NIST).
Both vulnerability management and the preparation of critical security documents such as the
Security Plan and the Authorization to Operate are necessary to meet this requirement.

EPA officials indicated the CTS equipment did not have all required security documents because
EPA officials rejected the contractors’ initial security plan. EPA officials indicated meeting this
requirement became a lower priority due to the aggressive schedule the Agency was under for
deploying the CTS equipment. As such, management lacks information it needs to protect the
Agency’s network from possible threats posed by the CTS equipment. Given the widespread use
of CTS equipment in EPA, thousands of unmonitored assets reside on the Agency’s network.
The unmonitored assets could potentially provide a path for someone to obtain unauthorized
access to the Agency’s network. Without taking action, EPA’s network remains exposed to
possible threats without a process to identify them or the means to lessen their impact in a timely
manner.

CTS Project Lacks a Process to Identify and Remediate Known Vulnerabilities

EPA does not have a process in place to test CTS equipment for known vulnerabilities. Based on
discussions with both EPA and CTS contractor staff, none of the personnel knew whether there
was a process in place. In addition, all indicated that this task was not being performed. Review
of the CTS statement of work disclosed that vulnerability testing was not part of the CTS team’s
responsibility.

During our annual review of EPA’s information security program, OIG contractors conducted
network vulnerability testing of EPA Headquarters program office networks and identified
several high-risk vulnerabilities. Summary results of these tests are posted on the OIG’s
Website. Upon analysis of these network tests, EPA system owners stated they do not have the
capability to fix the vulnerabilities. System owners stated they do not have system
administration rights for CTS equipment. Therefore, they are unable to remediate the high-risk
vulnerabilities. System owners also indicated they are not aware of the process to mitigate
vulnerabilities for CTS equipment connected to the Agency’s network. They also stated that
they do not know who is responsible for conducting the assessments and correcting known
vulnerabilities for CTS equipment.

NIST Special Publication 800-123, Guide to General Server Security, states that vulnerability
testing should occur on a weekly to monthly basis. NIST stresses that this ongoing testing is


                                                 2

                                                                                                10-P-0028 



extremely important for mitigating vulnerabilities as soon as possible to prevent them from being
discovered and exploited. EPA requires the CTS contractor to use the Agency’s tool that checks
systems for correct configuration settings. However, this tool does not have the means to detect
and provide solutions to remediate commonly known security vulnerabilities.

Compounding this issue, EPA has not made progress on four key audit recommendations we
made in 2004 and 2005.1 This lack of progress inhibits EPA from providing an Agency-wide
process for security monitoring of its computer network. Given the widespread use of CTS
computers throughout EPA and the fact that EPA does not have its own vulnerability
management program, EPA has hampered its ability to know what threats exists on its network.

CTS Project Lacks Required Security Planning

EPA had not taken steps to fully assess the threats CTS equipment pose to the Agency’s
network. Fundamental to the assessment is preparing a Security Plan. The purpose of the
system Security Plan is to provide an overview of the security requirements of the system and to
describe the controls in place or planned for meeting those requirements. The Security Plan
outlines responsibilities and expected behavior of all individuals who access the system. The
main component in having an
approved Security Plan is certifying                    OMB Guidance on Security of
                                                 Federal Automated Information Resources
the extent to which security controls
are implemented correctly,                                    Plan for adequate security of each
                                          System Security     general support system as part of the
operating as intended, and                      Plan          organization’s information resources
producing the desired outcome.                                management planning process.
This certification process results in                         Ensure that a management official
an EPA official formally                                      authorizes in writing the use of each
authorizing a system to operate.             Authorize        general support system based on
                                               Processing         implementation of its security plan
                                                                  before beginning or significantly
OMB Circular A-130 requires                                       changing processing in the system.
agencies to establish a minimum set
                                          Source: OIG extract from OMB Circular A-130
of controls to be included in federal
automated information security programs. OMB further cites the Security Plan, Authorization to
Operate, and incident handling as critical components. Likewise, OMB indicates, depending on
the potential risk and magnitude of harm that could occur, management should consider
identifying a deficiency pursuant to OMB Circular A-123, Management Accountability and
Control. OMB also indicates that management should report, under the Federal Managers’
Financial Integrity Act, if there is no Security Plan or no Authorization to Operate.

Headquarters’ offices replaced their equipment with equipment provided by the CTS contractor.
Therefore, the offices did not feel they had responsibility for monitoring the security of this
equipment. Program office officials indicated the Agency had not established roles of
responsibilities agreements with their offices. Therefore, they are not sure what role they play in
protecting the Agency’s network when it comes to CTS equipment. Furthermore, without
defined roles and responsibilities it would be difficult for them to answer questions related to

1
 EPA–OIG. Project Delays Prevent EPA from Implementing an Agency-wide Information Security Vulnerability
Management Program. Report No. 09-P-0240, September 21, 2009.


                                                     3

                                                                                       10-P-0028 



CTS equipment certification and accreditation, system inventory, or contractor oversight. EPA
management indicated it rejected the initial Security Plan submitted by the CTS contractor.
Management cited that this led to no security plan being in place for the CTS equipment.
Management indicated that the rejected Security Plan lacked the specific details that were
required by NIST. Management indicated that due to the time schedule for deploying the CTS
equipment, completing the security documentation became a lower priority.

Management showed us a draft security plan they planned to send through their office’s quality
assurance process. Management indicated the CTS contractor also conducted network
vulnerability testing of a sample of deployed CTS machines. Management indicated this was a
one-time test in support of the risk assessment needed to complete the CTS Security Plan.
Management also indicated it is drafting a memorandum of understanding to be signed by each
program office that has CTS equipment. However, although EPA indicated it would take steps
to put in place CTS security documents, 3 months have past since our meeting with management
and the Security Plan and memorandum of understandings with the EPA offices have not been
finalized.

On November 9, 2009, EPA signed an authorization to operate for the CTS equipment. This
authorization outlines milestone dates in which the CTS contractor must:

       •	 update the CTS security plan,
       •	 complete an inventory record in the Agency’s Registry of EPA Applications and
          Databases,
       •	 document NIST required security controls for system life cycle management,
       •	 establish Plans of Action and Milestones in the Agency’s Automated System Security
          Evaluation and Remediation Tracking (ASSERT) system to document remediation
          for high or moderate findings from the independent Risk Assessment,
       •	 establish memoranda of understanding with all appropriate organizations with CTS-
          defined roles, and
       •	 refine the Contingency Plan.

During our November 9, 2009, meeting with EPA, management indicated that it issued a
memorandum to Senior Information Officials regarding their responsibilities for conducting
vulnerability testing and that the requirement is in place within the Agency. While management
issued a memorandum, this memorandum required the Senior Information Officials to conduct
vulnerability testing of the equipment they own. Since the program offices do not own the CTS
equipment, management should update its guidance so the Agency Senior Information Officials
understand the complete scope of their responsibility for conducting vulnerability testing.

We believe further delays in putting in place a formal security structure for the CTS equipment
places EPA’s network at great risk. As such, potential security holes may exist and EPA
continues to not have an effective management control process to deal with these potential
weaknesses.




                                                4

                                                                                        10-P-0028 



Recommendations
We recommend the Director, Office of Technology Operations and Planning and Chief
Technology Officer, Office of Environmental Information:

   1. 	 Direct the CTS contractor to develop and implement a vulnerability testing and
        remediation process for CTS equipment consistent with existing EPA security policies
        and procedures. This procedure should (a) specify the roles and responsibilities for EPA
        information security personnel and CTS contractors, and (b) require communicating the
        vulnerability results and resolutions with the applicable EPA program offices.

   2. 	 Issue a memorandum to Agency Senior Information Officials requiring their program
        office to conduct vulnerability testing of CTS equipment until a formal vulnerability
        testing and management process with CTS has been established. The vulnerability test
        results should be forwarded to the CTS contractors for remediation.

   3. 	 Direct the CTS contractor to remediate identified vulnerabilities in a timely manner and
        to provide evidence to the initiating Senior Information Official when corrective actions
        have been taken. This action should continue until management establishes a formal
        vulnerability testing and management process with CTS.

   4. 	 Ensure all key actions outlined in the November 9, 2009, CTS Authorization to Operate
        are completed by the defined milestone dates.

   5. 	 Create Plans of Action and Milestones for the above recommendations in ASSERT.




                                                5

                                                                                                                                              10-P-0028



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                        Planned
    Rec.    Page                                                                                                       Completion   Claimed    Agreed To
    No.      No.                           Subject                           Status1         Action Official              Date      Amount      Amount

     1        5     Direct the CTS contractor to develop and                   O            Director, Office of
                    implement a vulnerability testing and remediation                  Technology Operations and
                    process for CTS equipment consistent with existing                     Planning and Chief
                    EPA security policies and procedures. This                         Technology Officer, Office of
                    procedure should (a) specify the roles and                          Environmental Information
                    responsibilities for EPA information security
                    personnel and CTS contractors, and (b) require
                    communicating the vulnerability results and
                    resolutions with the applicable EPA program
                    offices.

     2        5     Issue a memorandum to Agency Senior                        O            Director, Office of
                    Information Officials requiring their program office               Technology Operations and
                    to conduct vulnerability testing of CTS equipment                      Planning and Chief
                    until a formal vulnerability testing and management                Technology Officer, Office of
                    process with CTS has been established. The                          Environmental Information
                    vulnerability test results should be forwarded to the
                    CTS contractors for remediation.
                                                                               O            Director, Office of
     3        5     Direct the CTS contractor to remediate identified                  Technology Operations and
                    vulnerabilities in a timely manner and to provide                      Planning and Chief
                    evidence to the initiating Senior Information Official             Technology Officer, Office of
                    when corrective actions have been taken. This                       Environmental Information
                    action should continue until management
                    establishes a formal vulnerability testing and
                    management process with CTS.

     4        5     Ensure all key actions outlined in the November 9,         O            Director, Office of
                    2009, CTS Authorization to Operate are completed                   Technology Operations and
                    by the defined milestone dates.                                        Planning and Chief
                                                                                       Technology Officer, Office of
                                                                                        Environmental Information

     5        5     Create Plans of Action and Milestones for the              O            Director, Office of
                    above recommendations in ASSERT.                                   Technology Operations and
                                                                                           Planning and Chief
                                                                                       Technology Officer, Office of
                                                                                        Environmental Information




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   6

                                                                                       10-P-0028


                                                                                   Appendix A

                                       Distribution

Office of the Administrator
Acting Assistant Administrator for Environmental Information and Chief Information Officer
Acting Director, Office of Technology Operations and Planning and Chief Technology Officer,
    Office of Environmental Information
Acting Director, Technology and Information Security Staff, Office of Environmental Information
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Environmental Information
Acting Inspector General




                                                 7

